U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

November 13, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Reginald Ferguson v. United States of America,
S.Ct. No. 20-6090

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 27,
2020, and placed on the docket on October 21, 2020. The government’s response is due on
November 20 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including December 21, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-6090
FERGUSON, REGINALD
USA

REGINALD FERGUSON
PRISONER NO. 66262-060
PO BOX 5000
BRUCETON MILLS, WV 26525

